                 The Timeliness of Processing Taxpayer
                Requests for Appeals Review of Collection
                        Decisions Has Improved

                                 September 2004

                       Reference Number: 2004-10-185




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                    DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                        September 27, 2004


      MEMORANDUM FOR CHIEF, APPEALS
                     DEPUTY COMMISSIONER FOR SERVICES AND
                     ENFORCEMENT


      FROM:                  Gordon C. Milbourn III
                             Acting Deputy Inspector General for Audit

      SUBJECT:               Final Audit Report - The Timeliness of Processing Taxpayer
                             Requests for Appeals Review of Collection Decisions Has
                             Improved (Audit # 200310038)


      This report presents the results of our review of the processing of taxpayer requests for
      Office of Appeals (Appeals) review of collection decisions. The overall objective of this
      review was to evaluate the timeliness of processing taxpayer requests for Appeals
      review of collection decisions for Collection Due Process (CDP) and Offer in
      Compromise (OIC) cases. Cases involving collection decisions, such as CDP and OIC
      cases, are relatively new to Appeals and currently account for about one-half of the
      Appeals workload.
      In summary, early results of the centralization of processing and the use of electronic
      transfer for Appeals OIC cases indicate an improvement in the timeliness of case
      transfer and assignment. However, the Internal Revenue Service (IRS) Collection
      functions delayed transferring CDP cases to Appeals to continue their own efforts to
      resolve the cases. In Fiscal Year (FY) 2003, delays averaged 112 calendar days after
      the taxpayers had requested an Appeals hearing.
      To better track CDP hearing requests and provide management information to project
      workloads, the IRS implemented the Collection Due Process Tracking System (CDPTS)
      in March 2003. However, because the CDPTS is new, many cases were still not being
      recorded on it at the time of our review. For the last quarter of FY 2003, 29 percent of
      CDP cases completed by Appeals and recorded in the Appeals Centralized Database
      System (ACDS) were not recorded in the CDPTS. Although the percentage of cases
      missing from the CDPTS improved by January 2004 to 9 percent, there is still a risk of
      cases not being controlled on the CDPTS.
                                               2

Appeals is taking actions to reduce the number of overage CDP cases being sent back
to the Collection functions; however, we found collection activity was not resumed on
some CDP cases after the Appeals process was completed. From a sample of
200 CDP cases completed by Appeals in the last quarter of FY 2003, 11 of the 42 cases
returned to the Collection Field function (CFf) still had a hold or freeze on the taxpayers’
accounts, making the information unreliable for timely resumption of collection
enforcement action. These 11 taxpayer accounts had over $2 million in tax liabilities.
Additionally, 11,555 records recorded on the ACDS between FY 1999 and
February 2, 2004, contained unreliable information such as incomplete and incorrect
dates for certain actions (e.g., when the taxpayer requested a CDP hearing or when
Appeals received the request). Appeals advised us that certain additional automated
data validations for the ACDS would be implemented to address some errors we found.
However, Appeals did not propose an automated data validation to prevent or correct
some blank fields because, for some (but not CDP) cases, it is acceptable to have
certain fields remain blank.
We recommended the Deputy Commissioner for Services and Enforcement instruct
Collection function employees to forward CDP cases timely to Appeals after taxpayers
request a CDP hearing. In addition, the Deputy Commissioner for Services and
Enforcement and the Chief, Appeals, should establish a process to reconcile CDP
hearing requests in the CDPTS and the ACDS. We also recommended the Deputy
Commissioner for Services and Enforcement develop and distribute a CDPTS
management report to identify CDP cases that have been closed from Appeals but have
not had collection action resumed timely. Further, the Chief, Appeals, should implement
data validation steps to the ACDS which would prevent employees from leaving certain
date fields blank for CDP cases.
Management’s Response: In general, IRS management agreed with our
recommendations. However, management’s corrective action differed from our
recommendation to instruct Collection function employees to forward a CDP case timely
to Appeals after a taxpayer requests a CDP hearing without making extended attempts
to resolve the case unless initiated by the taxpayer. Rather than requiring taxpayers to
initiate discussions, IRS management will clarify procedures to emphasize the need to
obtain a taxpayer’s concurrence to continue discussion to resolve a case prior to its
transfer to Appeals.
In its Appeals Quality Measurement System case reviews on CDP cases, Appeals will
determine whether there is an indication the Compliance function inappropriately
delayed forwarding a case to Appeals. Appeals will initiate programming to produce
validation reports comparing the CDPTS data with the ACDS data. Appeals will also
initiate validation reports that will identify a blank field as a potential error that needs to
be researched and corrected if an entry is required. The Small Business/Self-Employed
Division will develop and distribute a CDPTS management report to identify CDP cases
that have been closed by Appeals but have not had the collection suspension reversed.
                                           3

Because management believes discussion with a taxpayer before his or her case is
transferred to Appeals can facilitate resolution once the case reaches Appeals,
management did not agree 23,500 cases would benefit from immediate transfer.
Furthermore, management stated that the CFf maintains control over cases with a
freeze or hold; therefore, they do not believe the cases we identified with $2 million
outstanding were not being pursued for payment. Management’s complete response to
the draft report is included as Appendix V.
Office of Audit Comment: While we believe the alternate corrective action to our first
recommendation may help reduce delays in transferring CDP cases, we remain
concerned that transfer of these cases to Appeals will be unnecessarily delayed while a
Collection function attempts to obtain taxpayer concurrence to continue discussions to
resolve these cases. While we still believe our recommendation is worthwhile, we do
not intend to elevate our concern over this matter to the Department of the Treasury for
resolution.
We also believe our outcome measures are valid. The 23,500 taxpayers we identified
would have had their hearing requests sent to Appeals much sooner if the IRS had
followed our recommendation. Management was unable to demonstrate whether
further attempts to discuss the collection matters with the taxpayers provided a
significant benefit to the resolution of these cases in Appeals. Regarding the cases we
identified with a freeze or hold, the purpose of such a freeze or hold is to prevent
collection enforcement action, regardless of whether the case is controlled in the CFf.
The $2 million we cited was not being pursued. Therefore, we disagree with
management’s assertions related to our outcome measures.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.
                        The Timeliness of Processing Taxpayer Requests for
                        Appeals Review of Collection Decisions Has Improved




                                                  Table of Contents


Background ............................................................................................... Page 1
The New Process for Transferring Offer in Compromise
Cases Has Improved Timeliness............................................................... Page 3
Collection Due Process Requests Are Not Sent to
Appeals Timely.......................................................................................... Page 4
         Recommendation 1: .......................................................................Page 7

Appeals Recently Implemented the Collection Due Process
Tracking System to Help Improve Control Over Cases ............................. Page 8
         Recommendation 2: .......................................................................Page 9

Appeals Is Taking Actions to Reduce Overage Collection
Due Process Cases................................................................................... Page 9
Collection Activity Was Not Resumed on Some Collection
Due Process Cases After the Appeals Process Was Completed.............. Page 11
         Recommendation 3: .......................................................................Page 13

The Appeals Centralized Database System Contains
Unreliable Information ............................................................................... Page 13
         Recommendation 4: .......................................................................Page 14

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 15
Appendix II – Major Contributors to This Report ....................................... Page 17
Appendix III – Report Distribution List ....................................................... Page 18
Appendix IV – Outcome Measures............................................................ Page 19
Appendix V – Management’s Response to the Draft Report ..................... Page 21
             The Timeliness of Processing Taxpayer Requests for
             Appeals Review of Collection Decisions Has Improved

                            The Internal Revenue Service (IRS) Office of Appeals
Background
                            (Appeals) provides taxpayers with an independent review,
                            after an examination is completed or collection action is
                            proposed, to settle disputes without litigation. Disputes
                            involving the collection of taxes account for about one-half
                            of the Appeals workload. The majority of collection cases
                            for which taxpayers request an Appeals hearing are in the
                            following two categories:
                            •        Collection Due Process (CDP) – When taxpayers are
                                     notified of an IRS lien or intent to levy, they have the
                                     right to request a CDP hearing with Appeals.
                            •        Offer in Compromise (OIC) – An OIC is an offer by
                                     a taxpayer to the IRS to settle a tax debt for less than
                                     the full amount. A taxpayer has the right to an
                                     Appeals hearing if the IRS rejects the taxpayer’s offer.
                            Taxpayer appeal rights for both of these categories were
                            established in the IRS Restructuring and Reform Act of
                            1998 (RRA 98).1 Since the RRA 98 was enacted, the
                            number of collection-related cases in Appeals has increased
                            significantly. Table 1 shows, for Fiscal Year (FY) 2003, the
                            number of these two types of cases received by Appeals, the
                            number closed, the number still in process at the end of the
                            year, and the average time it took for Appeals to process the
                            cases.
                                  Table 1: Appeals Processing of Collection Cases for FY 2003
                                                                                          Time to
                                                                                Ending   Process in
                                      Case Type          Receipts   Closures
                                                                               Inventory Calendar
                                                                                           Days

                                Collection Due Process   31,848     27,467      21,412        253

                                Offer in Compromise      16,861     13,462      11,385        313

                             Total                       48,709     40,929      32,797
                            Source: The Office of Appeals Business Performance Review,
                            November 2003.




                            1
                             Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
                            sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C.,
                            23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                            Page 1
The Timeliness of Processing Taxpayer Requests for
Appeals Review of Collection Decisions Has Improved

               In most instances, when a taxpayer requests an Appeals
               hearing for a case involving the collection of taxes, the IRS
               suspends further collection action until Appeals has made a
               determination on the case. As such, it is important that the
               IRS maintain proper control over the cases throughout the
               Appeals process. Timely transmittal of the cases to and
               from Appeals is important to allow for prompt resumption
               of collection and enforcement action once the Appeals
               determination is made.
               To help expedite Appeals case transfer and processing, in
               February 2003, Appeals reorganized its Records and
               Processing functions into one function called the Appeals
               Processing Service (APS) that controls the case processing
               and technical services for Appeals. The IRS Collection and
               Examination functions send a taxpayer’s request for an
               Appeals review to the APS function, which inputs the case
               information on the computer inventory system called the
               Appeals Centralized Database System (ACDS) and then
               forwards the case for assignment to an Appeals officer.
               Once the Appeals officer makes a decision, the case is sent
               back to the APS function for closing, which includes
               completing the information on the ACDS, issuing
               appropriate closing letters, making applicable adjustments to
               the taxpayer’s tax account for examination decisions, and
               sending the case with applicable instructions back to the
               appropriate IRS function.
               Further, Appeals has realigned or plans to realign case
               processing and technical services and plans to modernize its
               process by gaining direct access to IRS computer systems
               and receiving case information electronically. Because the
               IRS Collection functions centralized OIC case processing at
               the Memphis and Brookhaven Campuses,2 Appeals also
               centralized its OIC case processing in October 2003 at the
               Brookhaven Campus. Similarly, there are plans to
               centralize processing of Appeals CDP cases in campuses by
               the first quarter of FY 2005. These campuses contain the




               2
                The campuses are the data processing arm of the IRS. They process
               paper and electronic submissions, correct errors, and forward data to the
               Computing Centers for analysis and posting to taxpayer accounts.
                                                                                Page 2
                 The Timeliness of Processing Taxpayer Requests for
                 Appeals Review of Collection Decisions Has Improved

                                Automated Collection System (ACS) function,3 which is the
                                source for a significant portion of taxpayer requests for
                                Appeals CDP hearings. The remaining source of Appeals
                                CDP hearing receipts is from the Collection Field function
                                (CFf)4 located in local IRS offices across the nation.
                                This review was performed at the Appeals APS function
                                offices located in Brookhaven and Hempstead, New York;
                                Denver, Colorado; Ft. Lauderdale, Florida; and
                                Hartford, Connecticut. It included discussions with
                                Appeals, Small Business/Self-Employed (SB/SE) Division,
                                and Wage and Investment Division officials during the
                                period February through June 2004. The audit was
                                conducted in accordance with Government Auditing
                                Standards. Detailed information on our audit objective,
                                scope, and methodology is presented in Appendix I. Major
                                contributors to the report are listed in Appendix II.
                                During October 2003, Appeals centralized its OIC case
The New Process for
                                processing to align with the IRS Centralized OIC function.
Transferring Offer in
                                All taxpayer OICs are forwarded to the Centralized OIC
Compromise Cases Has
                                function so this function can evaluate each OIC to determine
Improved Timeliness
                                whether it can be processed and who should investigate the
                                case. Either the Centralized OIC function or a field
                                Compliance function employee investigates the offer to
                                determine if it will be accepted or rejected. If an OIC is
                                rejected and the taxpayer requests a review by Appeals, the
                                Centralized OIC function or field Compliance function will
                                forward the case to the centralized APS function in the
                                Brookhaven Campus. The APS function will establish the
                                taxpayer request on the ACDS using “e-Case”5 to
                                electronically transfer case information from the Automated
                                Offer in Compromise System (AOIC). The APS function
                                will then forward the case for assignment to an Appeals
                                officer. Once the Appeals officer’s decision is approved,
                                the case is returned to the APS function, which closes the


                                3
                                  The ACS is a telephone contact system through which telephone
                                assistors collect unpaid taxes and secure tax returns from delinquent
                                taxpayers that have not complied with previous notices.
                                4
                                  The CFf consists of revenue officers that deal directly with both
                                individual and business taxpayers to resolve tax liabilities.
                                5
                                  The ability to electronically transfer data from one system of records
                                to another is referred to by Appeals as “e-Case.”
                                                                                                  Page 3
                  The Timeliness of Processing Taxpayer Requests for
                  Appeals Review of Collection Decisions Has Improved

                                  case on its inventory system and returns it with instructions
                                  to the originating function.
                                  Early results of the centralization of processing and use of
                                  electronic transfer of case data indicate an improvement in
                                  the timeliness of case transfer and assignment. The average
                                  time between the date on which a taxpayer requests an
                                  Appeals hearing of a rejected OIC and the date on which the
                                  case is assigned to an Appeals officer decreased from 61 to
                                  48 calendar days.6 Appeals expects this time period to
                                  decrease as the process is further refined. The average time
                                  for the APS function to return a completed Appeals OIC
                                  case to the Centralized OIC function decreased from
                                  14 days to 1 day. In addition, we reviewed a statistical
                                  sample of 50 of the 1,248 OIC cases closed by Appeals in
                                  January 2004.7 We found that all of them were returned to
                                  the Centralized OIC function and actions taken to resume
                                  any necessary collection actions were timely.
                                  Further, the OIC cases were properly recorded on both the
                                  AOIC and the ACDS. For cases processed in Appeals in
                                  January 2004, after the APS function centralization of
                                  Appeals’ OIC cases, we compared the information on these
                                  two inventory systems for cases in which taxpayers
                                  requested an Appeals hearing of a rejected OIC. The
                                  Appeals OIC cases were properly recorded on both
                                  inventory systems.
                                  To evaluate the case controls over CDP cases throughout the
Collection Due Process Requests
                                  appeals process, we reviewed a judgmental sample of
Are Not Sent to Appeals Timely
                                  84 CDP case files8 from 4 APS function sites. For the cases
                                  in our sample, there were significant delays by the
                                  Collection functions in transferring the cases to the APS
                                  function—it took an average of 93 days before the APS
                                  function received the CDP hearing requests from the
                                  Collection functions. To further evaluate the length of time
                                  it was taking a CDP hearing request to be assigned to an

                                  6
                                    Centralization occurred in October 2003. We compared the first
                                  4 months of FY 2003 to the first 4 months of FY 2004.
                                  7
                                    We used a discovery sampling technique using a probability
                                  percentage of 90 percent and an estimated error rate of 5 percent.
                                  8
                                    We selected approximately 20 cases to be reviewed at each site visited
                                  based on those that would most likely have open files available; we also
                                  reviewed some additional cases that were recently received at the sites.
                                                                                                  Page 4
The Timeliness of Processing Taxpayer Requests for
Appeals Review of Collection Decisions Has Improved

               Appeals officer, we reviewed inventory information
               recorded on the ACDS during the period FY 1999 through
               February 2, 2004. The greatest amount of time occurred
               between the date on which a taxpayer requested a CDP
               hearing and the date on which the Appeals APS function
               received the request. Data from the ACDS indicate that,
               from the year 2000 forward, the Collection functions have
               been significantly delaying the transfer of CDP hearing
               requests. Table 2 shows the average time involved for a
               CDP hearing request to be assigned to an Appeals officer.
                   Table 2: Average Time for CDP Hearing Requests to Be Assigned
                                to Appeals Officers, FYs 1999 – 20049
                                                                       Total Calendar
                               Average Time in Calendar Days              Days for
                                                                       Request to Be
                                                         Assign to      Assigned to
                   Fiscal Transfer to Input Case         Appeals          Appeals
                   Year    Appeals to the ACDS            Officer         Officer
                    1999       30             5              5                  40
                    2000       63             5              8                  76
                    2001      105             7              9                  121
                    2002      108             7              8                  123
                    2003      112           10               7                  129
                    2004       83             5              5                  93
               Source: Treasury Inspector General for Tax Administration (TIGTA)
               review of Appeals’ inventory recorded on the ACDS from FY 1999
               through February 2, 2004.

               If a taxpayer requests a CDP hearing with Appeals, IRS
               procedures state that the Collection function employee
               should work with the taxpayer to resolve the case before the
               Appeals hearing if the taxpayer is willing. If the taxpayer is
               willing to resolve the case, this should be documented in the
               collection case history. If the taxpayer indicates he or she
               does not want to withdraw the request for a CDP hearing or
               if discussions with the taxpayer reach an impasse, the
               Collection function employee should document the case
               history and forward the case to Appeals.10


               9
                   As of February 2, 2004.
               10
                   Internal Revenue Manual sections 5.1.9.3.5 and 5.19.8.6.7.
                                                                                  Page 5
The Timeliness of Processing Taxpayer Requests for
Appeals Review of Collection Decisions Has Improved

               In the 84 CDP cases we sampled, there were no instances in
               which the taxpayers initiated contact with the Collection
               function to try to resolve the cases prior to their transfer to
               Appeals. Further, in 33 of the 84 cases, the taxpayers did
               not respond to attempts by the Collection function to contact
               them. In 6 of the 84 cases, the taxpayers stated, when
               contacted by the Collection function, that they wanted a
               CDP hearing.
               Collection function personnel advised us that ACS function
               employees at the four campus sites are directed to resolve a
               CDP hearing request before sending it to Appeals.
               Processing goals at the 4 different ACS sites ranged from
               60 to 90 days to transfer a case to Appeals. In FY 2003, the
               4 ACS campus sites processed 21,934 (73 percent) of the
               30,073 CDP hearing requests11 transferred to Appeals in an
               average of 128 days. In FY 2004 (as of February 2, 2004),
               they had processed 5,602 (74 percent) of the 7,528 CDP
               hearing requests transferred to Appeals in an average of
               91 days.12 We were advised that, if further resolution was
               not attempted, the CDP hearing requests would be ready to
               transfer to Appeals within 30 days.
               Few CDP hearing requests are resolved by the
               Collection functions
               In the FY 2003 Annual Report to Congress,13 the National
               Taxpayer Advocate expressed concern with delays in
               transferring CDP hearing requests to Appeals. The Chief,
               Appeals, responded that this process allows taxpayers to
               resolve collection disputes at the lowest possible level, with
               the least amount of delay; approximately 10 to 12 percent of
               the CDP hearing requests are resolved by the Collection
               functions.14


               11
                  The 21,934 CDP hearing requests processed by the ACS function and
               the 30,073 total CDP hearing requests are from an ACDS computer
               extract less records found to have missing or inaccurate dates.
               12
                  The average 128 days in FY 2003 and the average 91 days in FY 2004
               (as of February 2, 2004) are for the ACS function only. See Table 2 for
               the average days combined of both the ACS function and CFf.
               13
                  National Taxpayer Advocate, FY 2003 Annual Report to Congress,
               pages 38 to 59.
               14
                  National Taxpayer Advocate, FY 2003 Annual Report to Congress,
               page 55.
                                                                              Page 6
The Timeliness of Processing Taxpayer Requests for
Appeals Review of Collection Decisions Has Improved

               Based on our analysis, the number of CDP hearing requests
               resolved by the Collection functions in FY 2003 was
               approximately 3,500, which represents about 10 percent of
               the cases. However, the Collection functions still took an
               average of 109 days to resolve this 10 percent and delayed
               the rest of the CDP hearing requests by 129 calendar days
               (4 months), even though there was no resolution prior to the
               case transfer. We identified 23,500 taxpayers that had their
               requests for a CDP hearing delayed by the Collection
               functions by more than 45 calendar days in FY 2003.15
               These taxpayers may not be aware that their CDP hearing
               requests have not been forwarded to Appeals timely.

               Recommendation

               1. The Deputy Commissioner for Services and
                  Enforcement should instruct Collection function
                  employees to forward CDP cases timely to Appeals after
                  taxpayers request a CDP hearing. While Collection
                  function employees should contact taxpayers if
                  necessary to ensure completeness of a CDP hearing
                  request, no extended attempts should be made to resolve
                  a CDP hearing request unless the taxpayer initiates the
                  discussion to resolve the case prior to its transfer to
                  Appeals. Procedures should be updated and clarified to
                  reflect this instruction.
               Management’s Response: Although IRS management
               believes current procedures address this issue by stressing
               the need to forward CDP cases timely to Appeals, they will
               reemphasize and clarify CDP case processing time periods
               and procedures. However, rather than requiring taxpayers
               to initiate discussions, IRS management will clarify
               procedures to emphasize the need to obtain a taxpayer’s
               concurrence to continue discussion to resolve the case prior
               to its transfer to Appeals. In its Appeals Quality
               Measurement System case reviews on CDP cases, Appeals
               will determine whether there is an indication the


               15
                 The maximum of 45 calendar days we used includes time for the
               Collection functions to receive a taxpayer’s CDP hearing request, ensure
               completeness of the request, obtain additional information if necessary,
               and transfer the request to Appeals.
                                                                               Page 7
                 The Timeliness of Processing Taxpayer Requests for
                 Appeals Review of Collection Decisions Has Improved

                                Compliance function inappropriately delayed forwarding a
                                case to Appeals.
                                Because management believes discussion with a taxpayer
                                before his or her case is transferred to Appeals can facilitate
                                resolution once the case reaches Appeals, management did
                                not agree 23,500 cases would benefit from immediate
                                transfer.
                                Office of Audit Comment: While we believe the alternate
                                corrective action to our recommendation may help reduce
                                delays in transferring CDP cases, we remain concerned that
                                transfer of these cases to Appeals will be unnecessarily
                                delayed while the Collection function attempts to obtain
                                taxpayer concurrence to continue discussions to resolve
                                these cases.
                                We also believe our outcome measure is valid. The
                                23,500 taxpayers we identified would have had their hearing
                                requests sent to Appeals much sooner if the IRS had
                                followed our recommendation. Management was unable to
                                demonstrate whether further attempts to discuss the
                                collection matters with the taxpayers provided a significant
                                benefit to the resolution of these cases in Appeals.
                                To better track CDP hearing requests and provide
Appeals Recently Implemented
                                management information to project workloads, the IRS
the Collection Due Process
                                implemented the Collection Due Process Tracking System
Tracking System to Help
                                (CDPTS) in March 2003. This system should track all CDP
Improve Control Over Cases
                                cases from taxpayer request through resolution and is used
                                by both the Collection functions and Appeals. It also
                                electronically updates some actions on a taxpayer’s tax
                                account.
                                Because the CDPTS is new, many cases were still not being
                                recorded on it at the time of our review. For the last quarter
                                of FY 2003, 2,240 (29 percent) of the 7,675 CDP cases
                                completed by Appeals and recorded on the ACDS were not
                                in the CDPTS. The percentage had improved by
                                January 2004, when only 178 (9 percent) of the 1,928 CDP
                                cases completed by Appeals and recorded on the ACDS
                                were not in the CDPTS.
                                Currently, management reports are being designed for the
                                CDPTS. When these reports are completed and distributed,
                                the CDPTS should provide management information for the
                                                                                        Page 8
                  The Timeliness of Processing Taxpayer Requests for
                  Appeals Review of Collection Decisions Has Improved

                                 aging of cases, status of cases (including resolution), and
                                 other inventory statistics. The CDPTS will be less useful if
                                 it does not include all CDP hearing requests.

                                 Recommendation

                                 2. The Deputy Commissioner for Services and
                                    Enforcement and the Chief, Appeals, should establish a
                                    process to reconcile CDP hearing requests in both the
                                    CDPTS and the ACDS.
                                 Management’s Response: Appeals will initiate
                                 programming to produce validation reports comparing the
                                 CDPTS data with the ACDS data.
                                 If a taxpayer requests a CDP hearing with Appeals but not
Appeals Is Taking Actions to
                                 within a 30-day period, the taxpayer can still receive an
Reduce Overage Collection Due
                                 Equivalent Hearing with Appeals. However, an Equivalent
Process Cases
                                 Hearing does not suspend collection action and does not
                                 provide the taxpayer the right to seek judicial review of the
                                 Appeals determination. If a taxpayer timely requests a CDP
                                 hearing, the taxpayer has the right to seek judicial review
                                 after the appeals process if the taxpayer does not agree with
                                 the Appeals decision. In such cases, Appeals will issue a
                                 determination letter explaining its decision and advising the
                                 taxpayer as to whether the Tax Court or the United States
                                 (U.S.) District Court has jurisdiction.
                                 The taxpayer has 30 calendar days from the date of the
                                 determination letter to petition the appropriate Court. To
                                 provide time for the taxpayer to petition, Appeals will
                                 suspend the CDP case. If Appeals determines the taxpayer
                                 has not petitioned the Court after the suspension period, it
                                 will return the case to the appropriate Collection function
                                 for reinstatement of any necessary collection activity.
                                 Historically, Appeals would suspend CDP cases with Tax
                                 Court jurisdiction 60 calendar days (30 calendar days past
                                 the letter expiration date) and suspend CDP cases with
                                 U.S. District Court jurisdiction 180 calendar days. Cases
                                 having U.S. District Court jurisdiction were taking longer
                                 for Appeals to confirm whether the taxpayer had filed;
                                 however, due to improved communications with the
                                 U.S. District Court, Appeals changed this suspension period
                                 in May 2004 from 180 to 60 calendar days.
                                                                                        Page 9
The Timeliness of Processing Taxpayer Requests for
Appeals Review of Collection Decisions Has Improved

               Using Appeals’ inventory information on the ACDS as of
               February 2004, we determined CDP cases not requiring a
               determination letter took approximately 40 calendar days
               from the date of the Appeals decision to the date on which
               the case was returned to the Collection function. CDP cases
               requiring a determination letter took approximately
               124 calendar days from the date of the Appeals decision to
               the date on which the case was returned to the Collection
               function. Since our analysis was conducted before Appeals
               changed the suspension period for CDP cases with
               U.S. District Court jurisdiction, we attempted to separate
               CDP cases between the different Court jurisdictions.
               However, we could not separate the cases because
               information on the ACDS did not adequately indicate which
               Court had jurisdiction or which suspension period was
               applied for each case.
               To address overage inventories, Appeals periodically
               suspends APS function work and redirects its staff to reduce
               overage inventory, including CDP cases on which
               determination letters have been issued. This happened in
               March 2003 and again in February 2004.
               Appeals plans to minimize future CDP overage inventories
               by centralizing its processing and obtaining more
               information for its inventory and staffing allocation. By the
               first quarter of FY 2005, Appeals plans to centralize its CDP
               case processing operations into campus sites. This
               centralization is expected to help alleviate processing
               backlogs within the current APS function field offices. In
               addition, Appeals plans to use a new computer inventory
               system for the APS function to help control cases. This
               inventory system is called the Processing Employees
               Automated System and is currently being tested, with
               implementation planned, at the time of our review, for late
               FY 2004. This new System will provide management
               information regarding inventory levels and staffing
               allocation to help identify APS function processing issues
               involving staffing needs and overage inventory.
               Timely processing of CDP cases on which determination
               letters have been issued is important to protect the Federal
               Government’s interest. Through quick reinstatement of any
               collection actions, lost revenues are minimized. Appeals is

                                                                    Page 10
                   The Timeliness of Processing Taxpayer Requests for
                   Appeals Review of Collection Decisions Has Improved

                                  addressing this risk by reducing the suspension period for
                                  issuing determination letters with U.S. District Court
                                  jurisdiction, centralizing its CDP case processing, and using
                                  a new computer inventory system to provide management
                                  with information regarding inventory levels and staffing
                                  allocation.
                                  If a taxpayer requests a CDP hearing with Appeals within
Collection Activity Was Not
                                  30 days of notification of an IRS lien or intent to levy, a
Resumed on Some Collection Due
                                  hold or freeze is placed on the taxpayer’s account to prevent
Process Cases After the Appeals
                                  further collection action. When the CDP hearing process is
Process Was Completed
                                  completed due to an agreement with the taxpayer, a decision
                                  by Appeals, or a Court determination, the closing
                                  instructions are forwarded by the APS function to the
                                  appropriate Collection function. Collection action is
                                  resumed by releasing the hold or freeze placed on the
                                  taxpayer’s account. If a taxpayer requested a CDP hearing
                                  with Appeals but not within a 30-day period, the taxpayer
                                  can still receive an Equivalent Hearing with Appeals.
                                  However, as previously stated, an Equivalent Hearing does
                                  not suspend collection action and does not provide the
                                  taxpayer the right to seek judicial review of the Appeals
                                  determination.
                                  To determine if collection action was renewed after the
                                  completion of the CDP hearing process, we reviewed a
                                  statistical sample of 200 from the 7,675 CDP hearing
                                  requests completed by Appeals in the last quarter of
                                  FY 2003.16 Of the 200 sample CDP hearing requests,
                                  60 involved Equivalent Hearings that did not require a hold
                                  or freeze to be placed on the taxpayer’s tax account. Of the
                                  140 timely submitted CDP hearing requests, 98 were sent to
                                  Appeals from the ACS function and 42 from the CFf.
                                  In April 2004, we reviewed the 140 CDP hearing requests
                                  completed by Appeals to determine if delays in removing
                                  the hold or freeze on the taxpayers’ accounts prevented
                                  resumption of collection actions. Collection activity had
                                  been resumed on all of the 98 CDP hearing requests
                                  returned to the ACS function. However, 11 of the 42 CDP


                                  16
                                    Selecting a sample of cases from the last quarter of FY 2003 allowed
                                  time for current cases to reenter the collection process. See Appendix I
                                  for the process used to select the sample.
                                                                                                  Page 11
The Timeliness of Processing Taxpayer Requests for
Appeals Review of Collection Decisions Has Improved

               hearing requests returned to the CFf still had a hold or
               freeze on the taxpayers’ accounts more than 6 months after
               transfer from Appeals. The reasons are shown in Table 3.
                          Table 3: CDP Hearing Requests Returned to the
                    CFf That Still Had a Hold or Freeze on the Taxpayers’ Accounts
                Reason Hold or Freeze Was Not Timely Removed              Number
                From Taxpayer’s Account                                   of Cases
                Oversight by the revenue officer in the CFf in not            6
                releasing the hold or freeze.
                Appeals had initially sent the closed CDP case file and       2
                instructions to the wrong collection function address,
                and there was a delay in sending it to the correct
                address.
                Confusion as to whether Appeals or the CFf was                1
                responsible for releasing the hold or freeze.
                Not enough information in the file to determine cause.        2
                Total                                                        11
               Source: TIGTA review, in April 2004, of 42 CDP hearing requests
               returned to the CFf during the last quarter of FY 2003.

               The potential for lost revenue varied in the 11 CDP hearing
               requests we identified in our sample. In two cases, the
               taxpayers had fully paid the balances due before Appeals
               returned the cases to the CFf. For the other 9 cases, the total
               dollar amount potentially not being pursued for at least
               6 months was over $2 million at the time of our review.17
               Overall, based on the results of our sample, we estimate that
               1,612 of the 7,675 requests Appeals completed in the last
               quarter of FY 2003 were referred by the CFf and that
               423 (26 percent) of the 1,612 have an inappropriate hold or
               freeze on the taxpayers’ accounts, making the information
               unreliable for timely resumption of collection enforcement
               action.
               IRS management stated they have started centralizing the
               points at which cases are returned to the CFf to help get
               these CDP hearing requests back to the correct locations for
               resumption of collection actions. Nonetheless, there is no
               notification to Collection function managers to alert them

               17
                 These CDP cases were completed by Appeals in the last quarter of
               FY 2003 (July, August, and September) and our review of these cases
               occurred in April 2004.
                                                                           Page 12
                 The Timeliness of Processing Taxpayer Requests for
                 Appeals Review of Collection Decisions Has Improved

                                that an inappropriate hold or freeze remains on a CDP case
                                that has been closed by Appeals. Information in the CDPTS
                                could be used to alert Collection function managers about
                                such cases.

                                Recommendation

                                3. The Deputy Commissioner for Services and
                                   Enforcement should develop and distribute a CDPTS
                                   management report to identify CDP cases that have been
                                   closed by Appeals but have not had collection action
                                   resumed timely.
                                Management’s Response: The SB/SE Division will develop
                                and distribute a CDPTS management report to identify CDP
                                cases that have been closed by Appeals but have not had the
                                collection suspension reversed.
                                Notwithstanding, management stated that the CFf maintains
                                control over cases with a freeze or hold; therefore, they do
                                not believe the cases we identified with $2 million
                                outstanding were not being pursued for payment.
                                Office of Audit Comment: The purpose of such a freeze or
                                hold is to prevent collection enforcement action, regardless
                                of whether the case is controlled in the CFf. The cases we
                                identified with $2 million outstanding were not being
                                pursued for payment because of a freeze.

The Appeals Centralized         During our analysis of the timely processing of CDP cases
Database System Contains        discussed earlier in the report, we identified 11,555 records
Unreliable Information          created on the ACDS between FY 1999 and
                                February 2, 2004, that had unreliable dates recorded. Dates
                                were missing for certain actions (e.g., there was no date to
                                indicate when the taxpayer requested a CDP hearing on
                                some records) or there were negative time periods between
                                certain actions (e.g., the date recorded indicated Appeals
                                received the CDP hearing request before the taxpayer had
                                requested a CDP hearing). Some Appeals offices had a
                                higher rate of not recording data or recording incorrect data.
                                These records were not used in our time analysis of CDP
                                cases previously discussed because of their unreliability.
                                Appeals management advised us that, over the last 2 years,
                                they have created some processes and validation measures
                                                                                      Page 13
The Timeliness of Processing Taxpayer Requests for
Appeals Review of Collection Decisions Has Improved

               to help improve the accuracy of data contained in the
               ACDS. These include a requirement for managers to
               sample new and closed cases to test for accuracy, informal
               reports to help identify errors and make corrections, ongoing
               monitoring and validation of data, and 21 automated data
               validation steps to improve accuracy. Moreover, as a result
               of our audit, Appeals management advised us that certain
               additional automated data validations would be
               implemented to address the types of errors we found. The
               planned actions should help resolve a number of the errors
               and improve the reliability of data in the ACDS. However,
               Appeals management did not propose an automated data
               validation to prevent or correct some blank fields because
               there are some types of cases (other than CDP cases) for
               which it is acceptable to have certain fields remain blank.

               Recommendation

               4. The Chief, Appeals, should implement data validation
                  steps to the ACDS which would prevent employees
                  from leaving certain date fields blank for CDP cases.
               Management’s Response: Appeals will initiate validation
               reports that will identify a blank field as a potential error
               that needs to be researched and corrected if an entry is
               required.




                                                                      Page 14
                       The Timeliness of Processing Taxpayer Requests for
                       Appeals Review of Collection Decisions Has Improved

                                                                                                    Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the timeliness of processing taxpayer
requests for Office of Appeals (Appeals) review of collection decisions for Collection Due
Process (CDP) and Offer in Compromise (OIC) cases. To accomplish our objective, we:
I.      Determined whether the measures relating to reduction of inventory of CDP and OIC
        cases as outlined in the Appeals strategies have been implemented.
II.     Determined whether CDP and OIC appeals requests are timely forwarded to the Appeals
        Processing Service (APS) function sites and are then timely processed to the Appeals
        officers by the APS function sites.
        A. Using the Appeals Centralized Database System (ACDS), analyzed the various steps
           of the APS function processing of CDP and OIC cases, from the date on which a
           taxpayer requested an Appeals review to the date on which the case was assigned to
           an Appeals officer. In addition, we identified records with missing or inaccurate
           dates on the ACDS.
        B. Observed processing and interviewed managers at the Appeals APS function offices
           in Denver, Colorado; Ft. Lauderdale, Florida; Hartford, Connecticut; and Brookhaven
           and Hempstead, New York. We also reviewed a judgmental sample1 of 84 recently
           received and recently closed CDP and OIC cases at 4 of these 5 locations to evaluate
           the ACDS data, current processing policies and procedures, and causes for any delays
           in processing activity.
III.    Evaluated whether the APS function processing of CDP and OIC cases closed from
        Appeals was timely.
        A. Using the ACDS, analyzed the various steps of Appeals processing, from the date on
           which an Appeals officer made a final determination to the date on which the
           Collection function acknowledged receipt of the returned file. In addition, we
           identified records with missing or inaccurate dates on the ACDS.
        B. Evaluated strategies for the reduction of case processing backlogs.
IV.     Evaluated whether collection enforcement actions were timely resumed when appropriate
        after CDP and OIC cases were closed by Appeals.



1
  A judgmental sample of CDP and OIC cases was necessary because the APS function did not, at the time of our
review, have an inventory system to track cases in its inventory. No determination could be made of the population
of cases within the APS function.
                                                                                                          Page 15
                      The Timeliness of Processing Taxpayer Requests for
                      Appeals Review of Collection Decisions Has Improved

        A. From a population of 7,675 CDP cases closed by Appeals during the fourth quarter of
           Fiscal Year 2003, selected a statistically valid random sample of 200 CDP cases
           (using a 95 percent confidence level, a 15 percent expected error rate, and a
           +/- 5 percent precision rate). We reviewed the closing documents used to transmit the
           cases between Appeals and the Collection functions, the Appeals case activity
           records, the Appeals case memoranda of closing instructions, and Integrated Data
           Retrieval System (IDRS)2 information to determine whether the hold or freeze had
           been removed from the taxpayers’ accounts.
        B. From a population of 1,248 OIC cases closed by Appeals in January 2004, randomly
           selected a discovery sample of 50 OIC cases using a probability percentage of
           90 percent and an estimated error rate of 5 percent. Due to the recent OIC
           centralization, we sampled the most current month available on the ACDS. We
           researched the Automated Offer in Compromise (AOIC) database and the IDRS to
           determine whether the hold or freeze had been removed from the taxpayers’ accounts.
V.      Determined whether records of taxpayer CDP and OIC appeals requests were accounted
        for on Appeals and Collection function databases.
        A. Obtained a download of the Collection Due Process Tracking System (CDPTS), the
           ACDS, and the AOIC databases.
        B. Matched CDPTS and AOIC computer records to those on the ACDS.
        C. Requested Collection function and Appeals reports of reconciliations of the databases
           and discussed the status of database usage with Collection function and Appeals
           employees.
VI.     Determined whether the Collection functions were timely resolving CDP hearing requests
        by correspondence prior to forwarding them to Appeals.
        A. Requested management reports of the percentage of cases successfully resolved by
           the Collection functions after the date on which a taxpayer requested a hearing but
           before the case was sent to Appeals.
        B. Analyzed the CDPTS to estimate the percentage of CDP cases closed by the
           Collection functions before forwarding to Appeals.
        C. Researched policies and procedures for forwarding CDP cases to Appeals.
        D. Reviewed a judgmental sample3 of 84 CDP case files in 4 APS function sites to
           identify trends in case activity prior to the cases being received by Appeals.


2
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
3
  A judgmental sample was necessary because, at the time of our review, the APS function did not maintain an
inventory system to track its inventory.
                                                                                                         Page 16
                  The Timeliness of Processing Taxpayer Requests for
                  Appeals Review of Collection Decisions Has Improved

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Michael E. McKenney, Director
Aaron R. Foote, Audit Manager
Yasmin B. Ryan, Lead Auditor
Janice M. Pryor, Senior Auditor
Daniel M. Quinn, Senior Auditor




                                                                                      Page 17
                 The Timeliness of Processing Taxpayer Requests for
                 Appeals Review of Collection Decisions Has Improved

                                                                       Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Deputy Chief, Appeals AP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Chief, Appeals AP
       Deputy Commissioner for Services and Enforcement SE
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                            Page 18
                      The Timeliness of Processing Taxpayer Requests for
                      Appeals Review of Collection Decisions Has Improved

                                                                                                Appendix IV


                                           Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
    •   Taxpayer Burden – Actual; 23,500 taxpayers in Fiscal Year (FY) 2003 had their requests
        for a Collection Due Process (CDP) hearing delayed by the Collection functions
        (see page 4).
Methodology Used to Measure the Reported Benefit:
Using a computer extract from the Appeals Centralized Database System (ACDS), we
determined 23,500 of the 30,073 taxpayer requests1 in FY 2003 for a CDP hearing were not
forwarded to the Office of Appeals (Appeals) from the Collection functions within 45 calendar
days of the request received date. We used the date of the taxpayer CDP hearing request and the
date the case was received by Appeals to determine the length of time. The maximum of
45 calendar days we used includes time for the Collection functions to receive the taxpayer’s
CDP hearing request, ensure completeness of the request, obtain additional information if
necessary, and transfer the request to Appeals.
Type and Value of Outcome Measure:
    •   Increased Revenue – Potential; $2 million as of April 2004 was inappropriately
        suspended from collection enforcement actions (see page 11).
    •   Increased Revenue – Potential; 423 taxpayer accounts closed by Appeals in the last
        quarter of FY 2003 have an inappropriate hold or freeze which prevented the resumption
        of collection enforcement action (see page 11).
Methodology Used to Measure the Reported Benefit:
Using a computer extract from the ACDS, we determined 7,675 CDP cases in the last quarter of
FY 2003 had completed the Appeals process and were returned to the Collection functions. We
selected a statistical sample of 200 and found 11 cases had inappropriate holds or freezes on the
taxpayer accounts. These 11 cases had $2 million in tax liabilities inappropriately suspended
from collection enforcement actions. Based on our sample, we estimated 423 taxpayer accounts
(using a 95 percent confidence level and a precision of +/- 3.1 percent) have an inappropriate
hold or freeze which prevented the resumption of collection enforcement action. We did not

1
  The 30,073 total CDP hearing requests are from an ACDS computer extract less records found to have missing or
inaccurate dates.
                                                                                                        Page 19
                   The Timeliness of Processing Taxpayer Requests for
                   Appeals Review of Collection Decisions Has Improved

estimate the amount of tax liabilities inappropriately suspended from collection enforcement
actions for these 423 taxpayer accounts.
Type and Value of Outcome Measure:
   •   Reliability of Data – Actual; 11,555 records created on the ACDS from FY 1999 through
       February 2, 2004, contained unreliable data for dates (see page 13).
Methodology Used to Measure the Reported Benefit:
Using a computer extract from the ACDS for records created between FY 1999 and
February 2, 2004, we identified 11,555 records with unreliable data for dates. Dates were
missing for certain actions (e.g., there was no date to indicate when the taxpayer requested a
CDP hearing on some records) or there were negative time periods between certain actions
(e.g., the date recorded indicated that Appeals received the CDP hearing request before the
taxpayer had requested a CDP hearing). As a result of our audit, Appeals advised us that certain
additional automated data validations would be implemented to address the types of errors we
found. However, Appeals did not propose an automated data validation to prevent or correct
some blank fields because there are some types of cases (other than CDP cases) for which it is
acceptable to have certain fields remain blank. These unreliable records were not used in any of
our testing of CDP cases previously discussed in the report.




                                                                                         Page 20
The Timeliness of Processing Taxpayer Requests for
Appeals Review of Collection Decisions Has Improved

                                                      Appendix VI


  Management’s Response to the Draft Report




                                                           Page 21
The Timeliness of Processing Taxpayer Requests for
Appeals Review of Collection Decisions Has Improved




                                                      Page 22
The Timeliness of Processing Taxpayer Requests for
Appeals Review of Collection Decisions Has Improved




                                                      Page 23
The Timeliness of Processing Taxpayer Requests for
Appeals Review of Collection Decisions Has Improved




                                                      Page 24
